  Office of Inspector General

  Audit Report





        SUPERFUND


Superfund Interagency Agreements





      Report No. 2001-P-00011




           June 22, 2001
Inspector General Divisions

 Northern Division:           Robert Bronstrup

                              Leah Nikaidoh

                              Mike Davis

                              Tim Roach

                              Ann Weiland 


 Central Division:            Randy Holthaus

                              Angela Bennett

                              Dan Howard



Regions Covered:              Regions 2, 5, 6, and 7



Program Offices Involved:     Office of Solid Waste and Emergency

                              Response


                              Office of Administration and Resources

                              Management

                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL
                                   NORTHERN DIVISION
                              77 WEST JACKSON BOULEVARD
                                  CHICAGO, IL 60604-3590

                                           June 22, 2001

MEMORANDUM

SUBJECT:	      Report No. 2001-P-00011
               Superfund Interagency Agreements Audit


FROM:	         Leah L. Nikaidoh /s/
               Audit Manager
               Northern Audit Division

TO:	           Michael Shapiro
               Acting Assistant Administrator
               Office of Solid Waste and Emergency Response (OSWER)

               David O’Connor

               Acting Assistant Administrator

               Office of Administration and Resources Management (OARM)


               David Ullrich

               Acting Regional Administrator

               Region 5 


        Attached is our report entitled Superfund Interagency Agreements. We discussed our
findings with your staff and issued a draft report. We summarized your comments in the final
report and included your complete responses in Appendices 1, 2, and 3.

        We appreciate the cooperation of your staff and the assistance provided throughout the
audit. The staff exhibited a genuine interest in working with us to improve Superfund interagency
agreements and helped add value to this audit. The proactive participation and cooperation of
officials in OSWER, OARM, and Regions 2, 5, 6 and 7 throughout the audit greatly helped us in
completing this national review timely.

ACTION REQUIRED

         In accordance with EPA Order 2750, you, as the action official, are required to provide
this office a written response to the audit report within 90 days of the final audit report date. For
corrective actions planned but not completed by the response date, reference to specific milestone
dates will assist in deciding whether to close this report. Region 5, in its response, provided
corrective actions and milestone dates. Therefore, no further response is required for Region 5.
Region 5 should track any actions planned, but not yet completed, in its management tracking
system.

        This audit report contains findings that the Office of Inspector General (OIG) has
identified and corrective actions OIG recommends. This audit report represents the opinion of
OIG, and the findings in this audit report do not necessarily represent the final EPA position.
Final determinations on matters in this audit report will be made by EPA managers in accordance
with established EPA audit resolution procedures.

        We have no objection to the release of this report to the public. If you have any questions,
please contact me at (513) 487-2365, or Mike Davis at (513) 487-2363. Please refer to the
report number 2001-P-00011.

Attachment




                                                 2

                                                   Table of Contents


Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


          Summary of Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


          Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


Findings and Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          1: 	Regions Could Improve the Process for Reviewing

                 Qualifications of Servicing Agencies and Their Contractors . . . . . . . . . . . . . . . . 4


          2: 	IAG Terms and Conditions Generally Defined the 

                 Responsibilities of EPA and its Servicing Agencies . . . . . . . . . . . . . . . . . . . . . . 11


          3: 	EPA Generally Monitored IAGs

                 in a Consistent and Effective Manner . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          4: The 1991 OSWER Directive

                 Was Inconsistently Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          5: Memorandums of Understanding 

                with Federal Agencies Need Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


Exhibits

          A:         Environmental Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          B:         IAG Cost Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


          C:         Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23



                                                                     i                                      Report No. 2001-P-00011
Appendices

      1:     OSWER Response to Draft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


      2:     OARM Response to Draft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


      3:     Region 5 Response to Draft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


      4:     Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31





                                                         ii                                   Report No. 2001-P-00011
                                   Abbreviations


EPA      Environmental Protection Agency


IAG      Interagency Agreements


Manual   Project Officer Manual


MOU      Memorandum of Understanding


OARM     Office for Administration and Resources Management


OIG      Office of Inspector General


OSWER    Office of Solid Waste and Emergency Response


RMD      Resource Management Directives


USACE    U.S. Army Corps of Engineers





                                         iii                   Report No. 2001-P-00011
                       Introduction

Purpose
             The Superfund program had almost $3.5 billion in active or recently
             completed Interagency Agreements (IAGs) obligated as of
             September 2000 for removal and remedial activities. Our overall
             audit objective was to determine whether the U.S. Environmental
             Protection Agency (EPA) had effective controls in place to ensure
             its Superfund IAGs achieve expected environmental results in a
             timely, cost-effective, and efficient manner. The three specific sub-
             objectives designed to answer the overall objective were:

             •	 Does EPA (a) determine qualifications of servicing agencies and
                contractors, and (b) ensure the IAG terms and conditions define
                the responsibilities of EPA and its servicing agencies?

             •   Does EPA monitor IAGs in a consistent and effective manner?

             •	 Is the 1991 Office of Solid Waste and Emergency Response
                (OSWER) Directive regarding assignment of remedial actions
                between EPA contracts and the U.S. Army Corps of Engineers
                (USACE) practical for planning Superfund remedial activities?

Background
             Congress established the Superfund program by passing the
             Comprehensive Environmental Response, Compensation, and
             Liability Act in 1980 to locate, investigate, and clean up the worst
             uncontrolled or abandoned hazardous waste sites nationwide. To
             clean up these sites EPA uses a variety of extramural instruments
             (such as contracts, assistance agreements, and IAGs) to perform
             specific Superfund remedial and removal activities. An IAG is a
             written agreement between Federal agencies in which one agency
             needing supplies or services obtains them from another Federal
             agency (the servicing agency) on a reimbursable basis. EPA may
             also sign Memorandums of Understanding (MOUs) with servicing
             agencies to formally specify responsibilities, as well as establish the
             policies and set the framework for the funded IAGs.

             EPA has two offices that are responsible for administering
             Superfund IAGs: (1) OSWER, and (2) the Office for
             Administration and Resources Management (OARM). The
             OSWER is responsible for overall management of the Superfund

                                1                            Report No. 2001-P-00011
                     program at EPA. Within each Region, Project Officers and
                     Remedial Program Managers monitor specific Superfund IAGs to
                     ensure goods and services paid for by EPA are received. The
                     OARM is responsible for issuing IAG policy and guidance.

                     EPA has issued two Resource Management Directives (RMDs) that
                     pertain to EPA’s Superfund IAGs. RMD 2550C addresses the
                     policies and procedures that govern the relationship between EPA
                     and its servicing agencies under an IAG. RMD 2550D contains
                     specific information on the use of IAGs in the Superfund program,
                     and provides requirements relating to cost documentation, project
                     specific conditions, and billing conditions.

Summary of Results
                     EPA generally had effective controls in place to ensure its
                     Superfund IAGs achieve expected environmental results in a timely,
                     cost-effective, and efficient manner. The terms and conditions in
                     the individual IAGs defined the roles and responsibilities of EPA
                     and its servicing agencies, and most Regions reviewed and
                     monitored IAGs in a consistent and effective manner. However,
                     there are areas in which EPA could make enhancements to the IAG
                     process to ensure it receives the products and services paid for.
                     Specifically:

                     •	 Regions did not consistently determine the qualifications of
                        servicing agencies and their contractors.

                     •	 Region 5 did not include in its IAGs all required terms and
                        conditions, and did not monitor IAGs on a consistent basis.

                     •	 The 1991 OSWER Directive was out of date and inconsistently
                        used by Regions to assign Superfund work between EPA
                        contractors and IAGs with the USACE.

                     Additionally, we noted that three MOUs between EPA and other
                     agencies excluded important terms and conditions needed for
                     safeguarding the Superfund Trust Fund.




                                       2                          Report No. 2001-P-00011
Agency Comments
and OIG Evaluation	   OSWER, OARM, and Region 5 all generally concurred with our
                      findings and recommendations, and their planned corrective actions
                      were responsive to our recommendations. Both OSWER and
                      OARM expressed concern that discussing servicing agency and
                      contractor qualifications could lead to a potential de facto
                      debarment of contractors. We conducted an exit conference on
                      June 20, 2001 to discuss concerns with the draft report. As a
                      result, we revised our findings and recommendations in this final
                      report to mitigate the concern of a potential de facto debarment.

Scope and
Methodology	          We reviewed a total of 18 active or recently completed IAGs from
                      Regions 2, 5, 6, and 7 to accomplish our objectives. Exhibit A lists
                      environmental accomplishments related to these IAGs; exhibit B
                      provides a cost summary for each IAG; and, exhibit C provides
                      additional details on our audit scope and methodology.




                                        3                          Report No. 2001-P-00011
                      Findings and Recommendations



         Finding 1: Regions Could Improve the Process for Reviewing
          Qualifications of Servicing Agencies and Their Contractors

                        EPA Regions did not consistently determine and/or document the
                        qualifications of servicing agencies and their contractors in
                        accordance with EPA guidance. Also, the Regions did not check
                        on servicing agency/contractor performance in other Regions to
                        learn if they had incurred any problems. These conditions generally
                        occurred due to a lack of effective processes. Consequently, there
                        was an increased risk that a servicing agency and/or contractor with
                        known performance problems in one Region could be awarded
                        work in other Regions, which could result in EPA paying excessive
                        amounts and/or receiving inadequate service.

Guidance Emphasizes     EPA guidance emphasizes the importance of determining servicing
Importance of           agency qualifications. The Project Officer Manual (Manual)
Qualifications	         requires every Decision Memorandum to include an explanation as
                        to why the servicing agency was selected. The Manual also states:

                           Although the relationship under an IAG is with another
                           Federal agency, inadequate performance should be
                           considered in deciding whether to undertake future
                           cooperative efforts with that agency. Project Officers
                           should also report poor performance (in writing) to the
                           Grants Management Office.

Servicing Agency        Regions 6 and 7 formally documented the selection of the servicing
Qualifications          agency in the Decision Memorandums, which explain why the
Not Consistently        servicing agencies were selected. In contrast, Regions 2 and 5 had
Determined or           no information in any of the 10 IAG Decision/Action
Documented	             Memorandums that we reviewed (5 for each Region) that
                        documented the qualifications and reasons for selecting the
                        servicing agency. Specifically:

                        •	 Although Region 2 officials conducted reviews, they did not
                           document the reasons for selection in individual IAG
                           Decision/Action Memoranda (based upon such factors as past
                           performance, technical ability, etc.), primarily because they had

                                          4                           Report No. 2001-P-00011
                                      been using the same servicing agency for a number of years.
                                      Based on a 1983 MOU between EPA and the USACE, as well
                                      as a 1991 OSWER Directive1, they considered that to be
                                      sufficient basis for using USACE.

                                  •	 Region 5 project managers said they were unaware of the
                                     requirement to include a justification for selecting a particular
                                     servicing agency. Additionally, servicing agency qualifications
                                     were not always determined.

Information Needs                 EPA has no effective process to report and disseminate
to Be Shared                      servicing agency performance information among Regions. Only
Among Regions	                    4 of the 18 project managers (Project Officers, Remedial Program
                                  Managers, and on-scene coordinators) for our review indicated they
                                  asked other Regions about qualifications of servicing agencies. The
                                  four project managers, however, had no documentation of such
                                  discussions in any of their respective IAG files. The absence of an
                                  effective process to evaluate servicing agency qualifications beyond
                                  regional boundaries could result in poor-performing servicing
                                  agencies being awarded additional work in other Regions.

                                  For example, we noted a specific instance in which a servicing
                                  agency with a history of contract management and contractor
                                  performance problems successfully marketed services that it was
                                  not able to deliver. In an EPA Office of Inspector General (OIG)
                                  audit report issued January 22, 1996,2 we reported contractor
                                  management problems with the five IAGs that the Department of
                                  Interior’s Bureau of Reclamation – the servicing agency – had at
                                  EPA Region 8’s Summitville site. The OIG identified problems
                                  with the Bureau’s ability to ensure that the appropriate contracting
                                  decisions were made to monitor and control costs. In our report,
                                  we indicated that the Department of Interior-OIG had identified
                                  $5.8 million in contractor overpayments, under a separate
                                  Department of Interior-OIG audit. The EPA-OIG recommended
                                  that EPA reevaluate the suitability of the Bureau to continue
                                  managing Region 8 cleanup sites and any future EPA Superfund
                                  cleanup activities. However, on September 23, 1996, eight months

        1
         1991 OSWER Directive encourages EPA to assign remedial activity over $15 million to USACE.
        2
          EPA Report No. 6400019, “Region 8 Needed to Further Improve Interagency Agreement Oversight to
Ensure Efficient Summitville Superfund Site Cleanup.” This audit report was the result of a March 1995
Congressional request, in which a Congressman expressed concerns with the Bureau’s contractor and the Bureau’s
oversight of the contractor at the Summitville site.

                                                      5                              Report No. 2001-P-00011
                         after the EPA-OIG report was issued, Region 5 officials (without
                         knowledge of the EPA-OIG audit report) awarded an IAG to the
                         Bureau and the same contractor to perform removal activities at the
                         Benton Harbor site, where problems in monitoring and controlling
                         costs were also encountered.

                         The absence of EPA having a national process for reporting poor
                         performing servicing agencies may have contributed to the Benton
                         Harbor IAG exceeding its estimated cost and time for completion.
                         A better process may have resulted in the selection of another
                         contractor to perform the work at Benton Harbor. The Benton
                         Harbor IAG, which involved radiation cleanup, was expected to
                         cost $2.7 million and take 2 years to complete. This IAG had a
                         final cost of $7.08 million, and the cleanup is still not complete.
                         Region 5 let the period of performance for the IAG expire, and
                         plans to finish the site cleanup with an EPA contractor.

Two EPA Councils         EPA has two national councils in place that could be used to
Could be Used to Share   share information on IAGs and servicing agencies between the
Information Nationally   Regions:

                         •	 Superfund Senior Regional Management and Acquisition
                            Council: The mission of this council is to provide guidance and
                            direction to Superfund program managers implementing
                            recommended improvements in management processes that
                            promote consistent approaches to managing high quality
                            cleanup projects. One of the council’s emphases is to serve as a
                            conduit for information transfer.

                         •	 Grants Customer Relations Council: The mission of this
                            council is to provide a forum for discussing matters relating to
                            the administrative management of assistance agreements. An
                            objective of the council is to continually improve the Agency’s
                            assistance agreement processes and systems, emphasizing a
                            preventative approach.

                         Although the Superfund Senior Regional Management and
                         Acquisition Council concentrates on contracting issues facing
                         Superfund, and the Grants Customer Relations Council focuses on
                         assistance agreements, little time is devoted to IAG issues as part of
                         either workgroup. Since the Superfund program had almost $3.5
                         billion awarded in active IAGs as of September 2000, incorporating
                         IAGs and servicing agency qualifications as part of those two


                                           6                           Report No. 2001-P-00011
                   council’s missions or another IAG focus group could better ensure
                   that qualification issues are timely and fully resolved.

EPA Participated   The Regions participated in the contractor selection process with
in Contractor      USACE, in accordance with RMD 2550D, which encourages
Qualifications     Remedial Program Manager participation. For example, Region 2
Process	           established a Contract Advisory Panel for the purpose of discussing
                   and selecting contractors that would be working on Superfund
                   IAGs with USACE. The Contract Advisory Panel consisted of the
                   USACE Program Manager and the EPA Remedial Program
                   Manager. The Remedial Program Manager’s participation in this
                   process is important to ensuring the IAG is successfully completed.
                   However, this process did not include obtaining easily accessible
                   contract performance data.

                   The Regions did not obtain contractor performance data, in part
                   because the Directive does not specify how, or to what extent, the
                   Remedial Program Manager should participate in the contractor
                   selection process. Additionally, the Directive does not identify
                   what sources are available to obtain contractor performance
                   information. There are two sources that Remedial Program
                   Managers could consider:

                   •   contractor performance results from other EPA Regions, and

                   •	 contractor information used by the servicing agency as part of
                      its contract management function.

                   EPA project managers should obtain information on contractor
                   performance so they can: (1) ensure the contractor is capable of
                   performing specific tasks required in the IAGs, and (2) address and
                   resolve any identified performance issues prior to awarding IAGs.
                   Such information, which should be maintained either by EPA or its
                   servicing agency, would include:

                   •	 audit reports of the contractor and/or servicing agency contract
                      officials,

                   •   contractor evaluations prepared by the servicing agency, and

                   •	 performance problems that are formally reported to Regional
                      Grants Management Offices by EPA project managers.



                                     7                          Report No. 2001-P-00011
                  An additional source of information on prior contractor
                  performance is the National Institutes of Health Contractor
                  Performance System. This is a tool used by Federal agencies for
                  researching qualifications and performance history of contractors.
                  EPA Project Officers and Remedial Program Managers may detect
                  contractors with a prior history of performance problems if they
                  begin using this system.

Conclusion
                  There is an increased risk that EPA could award IAGs to servicing
                  agencies with a history of poor performance unless Regions begin
                  using more available research tools. As previously noted, Region 5
                  selected the Bureau of Reclamation and its contractor for work at
                  Benton Harbor without taking into account performance problems
                  experienced with that servicing agency and contractor by another
                  Region. The Benton Harbor IAG was expected to take 2 years and
                  cost $2.7 million to complete, but the IAG cost $7.08 million and
                  the project is still not completed. Although we did not determine
                  how much of the overrun was due to legitimate reasons versus poor
                  performance, some of the more than $4 million in additional costs
                  could have been put to better use if qualifications (of both the
                  servicing agency and contractor) were confirmed prior to awarding
                  the IAG.

Recommendations
                  We recommend that OARM and OSWER:

                  1-1 	 Establish processes to: (a) review servicing agency
                        qualifications, (b) discuss IAG issues and servicing agency’s
                        ability to monitor and control contractor performance, and (c)
                        report poor performance to the appropriate authorities.

                  1-2 	 Direct Regions to follow guidance to document selection of
                        servicing agencies under their IAGs.




Actions Taken
by Region         As a result of our discussions, Region 2 agreed to document the


                                    8                          Report No. 2001-P-00011
                      justification for selecting a servicing agency in all future Superfund
                      IAGs. The Region 5 Section Chief for Remedial Response also
                      agreed that including such information was reasonable.

                      Further, Region 5 agreed to standardize their IAG format to include
                      documentation of the rationale used to select an IAG versus a
                      contract. Region 5 also agreed to document the requirement in an
                      internal control memo for distribution and use in training within the
                      Superfund Division. We believe these steps are positive, but
                      additional actions need to be taken to fully implement the
                      recommendations.

Agency Comments
and OIG Evaluation	   Although OSWER asserted that project officers should closely
                      monitor work under IAGs, they disagreed with the recommendation
                      to discuss contractor performance among Regions because such
                      discussions could lead to a potential de facto debarment situation.
                      OSWER considered evaluating the performance of another Federal
                      agency’s contracting operations and the performance of the other
                      agency’s contractor to be beyond the scope and authority of project
                      officers. It is OSWER’s contention that EPA was only responsible
                      for justifying the selection, not qualifications, of the servicing
                      agency in its decision memorandums.

                      OARM agreed with the underlying premises of the recommendation
                      that EPA needs to pay greater attention to contractor performance
                      on IAGs. However, OARM was also concerned that such a
                      process, if not properly structured, would result in a de facto
                      debarment of contractors outside of the government-wide
                      debarment and suspension system. OARM warned that de facto
                      debarment could result in contractors filing lawsuits against Agency
                      officials in their individual capacities alleging violations of due
                      process rights.

                      We modified the report and recommendations after considering the
                      comments from OARM and OSWER, and consultation with our
                      legal counsel. We recognize that: (1) IAGs are agreements EPA
                      directly into enters with another agency and not the other agency’s
                      contractor, and (2) contractors are entitled to due process of their
                      rights. However, EPA is not prohibited from discussing a servicing
                      agency’s ability to monitor and control contractor performance
                      among Regions. If such discussions identify poor performance, it
                      should be shared among the Regions and reported to the

                                         9                           Report No. 2001-P-00011
              appropriate authorities for resolution without resulting in a de facto
              debarment. Such discussions among the Regions are important
              since EPA has the ultimate fiduciary responsibility to safeguard the
              Superfund trust fund. In addition, there are tools (i.e., audit
              reports, contractor evaluations prepared by servicing agencies,
              performance problems reported to Regional Grants Management
              Offices, etc.) that are available and could be furnished to project
              officers in order to evaluate another Federal agency’s contracting
              operations and the performance of the other agency’s contractor.
              These evaluations do not exceed the scope and authority of project
              officers. Also, the EPA’s IAG Project Officer manual requires
              decision memorandums to include an explanation of why the other
              agency was selected, and we believe it is reasonable and prudent to
              expect a servicing agency’s qualifications to be part of such an
              explanation.




Finding 2: IAG Terms and Conditions Generally Defined the
     Responsibilities of EPA and its Servicing Agencies


                                10                           Report No. 2001-P-00011
                 IAG terms and conditions generally defined the responsibilities of
                 EPA and its servicing agencies for all 18 IAGs reviewed. Also, all
                 of the RMD 2550D-required reporting requirements were included
                 in the IAGs in Regions 2, 6, and 7. However, the Region 5 IAGs
                 did not consistently include the following reporting requirements:

                 •   Weekly status reports
                 •   Upcoming activities
                 •   Budgeting on task-by-task basis
                 •   Key Problems

                 This resulted in Region 5 not receiving necessary information to
                 manage projects.

                 RMD 2550D requires that specific project reporting requirements
                 be included in each IAG, including: (1) holding weekly status
                 updates, and, (2) submitting monthly progress reports to EPA with
                 important information on work being accomplished under the IAG
                 (such as scheduled and completed work, cost, problems resolved,
                 key personnel changes, deliverables submitted, upcoming
                 events/activities, and budget data on a task-by-task basis). The
                 information required under RMD 2550D is needed for the Project
                 Officer and Remedial Program Manager to actively plan and
                 manage their projects.

                 Regions 2, 6, and 7 included the required terms and conditions in
                 their IAGs because they had processes in place to ensure that the
                 terms and conditions were included. For example, these Regions
                 used standard language that incorporated all of the RMD 2550D
                 requirements as an IAG attachment. Region 5, however, has no
                 process to ensure that all requirements are included in the IAG
                 prior to issuance. Region 5 Remedial Program Managers were
                 unaware of RMD 2550D and therefore did not include all of the
                 required terms and conditions in their IAGs. As a result, they do
                 not receive needed information for monitoring assigned projects.

Recommendation
                 2-1 We recommend that Region 5 implement a process to ensure
                     that all of its IAGs contain the RMD 2550D elements.


Actions Taken


                                  11                          Report No. 2001-P-00011
by OSWER	             OSWER stated that it also intends to work with the Grants
                      Administration Division to improve IAG and MOU terms and
                      conditions to address performance and oversight issues. We
                      believe OSWER’s actions will further strengthen EPA’s
                      administration and oversight of IAGs.

Agency Comments
and OIG Evaluation	   Region 5 concurred with our finding and recommendation. Region
                      5 plans to make Superfund IAG project officers and technical staff
                      aware of the requirements of RMD 2550D by including the
                      requirements in an internal control memo and training to be
                      developed by a workgroup. The workgroup will be established in
                      the third quarter of Fiscal Year 2001 and the internal control memo
                      and training will be completed by the end of the first quarter of
                      Fiscal Year 2002. We believe Region 5's comments and planned
                      corrective actions are responsive to our recommendation.
                      Therefore, no further response is required for Region 5.




                                       12                          Report No. 2001-P-00011
                 Finding 3: EPA Generally Monitored IAGs
                    in a Consistent and Effective Manner

                       The Regions monitored their IAGs in a consistent and effective
                       manner, with the exception of Region 5. Three of the five IAGs in
                       Region 5 were not monitored on a consistent basis, due to the lack
                       of a process to ensure that monthly progress reports are sent to the
                       Project Officer by the servicing agency. Without regular reviews,
                       Region 5 is less likely to identify questionable billings and resolve
                       other discrepancies in a timely manner.

                       RMD 2550C, requires that the servicing agency provide monthly
                       progress and cost reports to the Project Officer. The Project
                       Officer has the responsibility to use this data for monitoring,
                       reviewing cost information, and resolving discrepancies identified in
                       the reports.

                       For Region 5, Remedial Program Managers were directly receiving
                       monitoring reports instead of Project Officers in some instances,
                       and thus Project Officers could not perform the required reviews.
                       In other instances, neither the Project Officer nor Remedial
                       Program Manager received the required reports. Region 5 had not
                       clearly and formally established a process to ensure that the
                       required reports are sent to Project Officers by the servicing
                       agency.

                       In 1998 Region 5’s Contracts and Assistance Agreement Section
                       recognized that there were problems with receiving monitoring
                       information from USACE. The section chief worked with USACE
                       to correct the problem. However, monitoring reports are still not
                       received on a timely and consistent basis by the Project Officer.

                       Other Regions have used the monitoring reports to resolve
                       discrepancies. For example, Region 2 identified costs that were
                       inappropriately billed and paid to a servicing agency. A subsequent
                       review determined that the incorrect billings occurred because of a
                       problem with the servicing agency’s accounting system, and the
                       incorrect charges were resolved by crediting future billings.




Recommendation

                                         13                          Report No. 2001-P-00011
                      3-1	 We recommend that Region 5 establish a process that ensures
                           monitoring reports are received and reviewed by both the
                           Project Officers and Remedial Program Managers.

Agency Comments
and OIG Evaluation	   Region 5 concurred with our finding and recommendation.
                      Region 5 plans to establish a workgroup in the third quarter of
                      Fiscal Year 2001 that will review how to improve the monitoring
                      process of IAGs in a consistent and effective manner. The
                      workgroup will consider other Regional processes and implement
                      its new process by the end of the first quarter of Fiscal Year 2002.
                      We believe R5's comments and planned corrective actions are
                      responsive to our recommendations. Therefore, no further
                      response is required for Region 5.




                                        14                          Report No. 2001-P-00011
                           Finding 4: The 1991 OSWER Directive
                              Was Inconsistently Implemented

                                 The 1991 OSWER Directive3, which provides policy on assigning
                                 remedial work, was out of date and not consistently used by the
                                 Regions. This 10-year-old policy was not consistently used due to
                                 ambiguities and the implementation of new EPA Superfund
                                 procurement strategies.

                                 The purpose of the 1991 OSWER Directive was to provide a policy
                                 for the Regions to use when assigning remedial work between
                                 EPA’s remedial contractors and USACE through IAGs. The policy
                                 states that: (1) remedial actions over $15 million should be assigned
                                 to USACE; and, (2) assignment of projects to the Alternative
                                 Remedial Contracting Strategy or USACE should not be based
                                 solely on remedial action value. Subsequently, OSWER and
                                 OARM introduced a new Contracts 2000 strategy that outlined a
                                 new menu approach that allowed Regions discretion when selecting
                                 a procurement option.

                                 Our review showed the four Regions did not consistently use the
                                 Directive. For example:

                                 •	 Region 6 considered the Directive as a planning option.
                                    Nonetheless, they submitted waivers to OSWER that justified
                                    why they did not use USACE for projects over $15 million.

                                 •	 Region 7 used the Directive as a planning tool, but did not use
                                    it as the sole basis for awarding IAGs to USACE.

                                 •	 Region 2 believed the Contracts 2000 Strategy superseded the
                                    Directive’s dollar thresholds.

                                 •	 Region 5 did not find the Directive relevant to its current work,
                                    since it did not have active IAGs exceeding the $15 million
                                    threshold.

                                 OSWER officials stated the Contracts 2000 Strategy did not
                                 supersede its 1991 Directive. They said the 1991 Directive was
                                 intended to provide flexibility in how Superfund remedial work was

        3
        The OSWER Directive is entitled, “Revisions of Policy Regarding Superfund Project Assignment
between Alternative Remedial Contracting Strategy Contractors and the U.S. Army Corps of Engineers.”

                                                    15                             Report No. 2001-P-00011
                       assigned. OSWER explained that its Directive listed factors (such
                       as dollar value) that needed to be considered when assigning
                       Superfund work. However, it did not require work to be assigned
                       to USACE based solely on dollar thresholds.

                       The ambiguity of the Directive, in conjunction with the new
                       procurement strategies in the Contracts 2000 Strategy, resulted in
                       Regions inconsistently implementing the Directive. It is a good
                       business practice to periodically review issued policies to ensure
                       that such policies will meet the goals and strategies of its
                       organization.

Recommendation
                       4-1 We recommend that OSWER review and update its 1991
                           OSWER Directive to ensure its goals and strategies are met.

Action Taken
by OSWER	              During our monthly meetings with the OSWER and the Regions,
                       OSWER agreed that the Directive should be reviewed and updated.

Agency Comments
and OIG Evaluation	    OSWER concurred with our finding and recommendation. OSWER
                       established a subgroup under the Design/Construction Phase II
                       workgroup to revise the 1991 OSWER directive entitled “Revisions
                       of Policy Regarding Superfund Project Assignment between
                       Alternative Remedial Contracting Strategy Contractors and U.S.
                       Army Corps of Engineers.” We believe OSWER’s comments and
                       planned corrective actions are responsive to our recommendations.
                       However, we believe a date for when such action will be completed
                       is needed to ensure its successful implementation.




                 Finding 5: Memorandums of Understanding

                                        16                          Report No. 2001-P-00011
with Federal Agencies Need Improvement

     The Memorandums of Understanding (MOUs) that EPA entered
     into with three servicing agencies to establish terms and conditions
     for the management of Superfund IAGs did not include some terms
     and conditions that would be useful for safeguarding the Superfund
     Trust Fund. This condition occurred because EPA has no
     applicable guidance governing MOUs for Superfund IAGs. As a
     result of these omissions, the EPA Superfund Trust Fund is at risk
     of not being reimbursed when a servicing agency or contractor
     performs poorly.

     For example, there were no terms and conditions that required:

     •	 Audits of the servicing agency’s contractor upon completion of
        the Superfund IAG.

     •	 Regular meetings between EPA and the servicing agency on a
        national level to discuss IAG performance issues.

     •	 The servicing agency to identify recent reviews and audits of its
        contracting practices, and a contractor performance system
        used to evaluate contractors.

     Since the ultimate fiduciary responsibility of safeguarding the
     Superfund Trust Fund remains with EPA, a condition of recourse
     for poor performance should be included in all MOUs entered with
     servicing agencies performing under a Superfund IAG.

     Currently, the MOU with the U.S. Coast Guard is the only MOU
     that included a condition for recourse when a servicing agency
     poorly performed its duties. For example, the MOU with the U.S.
     Coast Guard stated that:

        If, based on an audit by the Department of Transportation
        Inspector General, the U.S. Coast Guard determines that
        any direct or indirect costs charged to Superfund are
        unallowable, the U.S. Coast Guard will immediately notify
        the EPA and promptly reimburse Superfund.

     During our review, we also noted that the Assistant Administrator
     for OSWER signed MOUs with the USACE in 1983, the Bureau of
     Reclamation in 1987, and the U.S. Coast Guard in 1994. Since the

                      17                          Report No. 2001-P-00011
                      Assistant Administrator for OARM issues IAG policy, we believe
                      the MOU process could be strengthened by also having that
                      Assistant Administrator review and approve the MOUs.

Recommendations
                      We recommend that OARM and OSWER:

                      5-1	 Update all MOUs for Superfund IAGs to ensure that the
                           language is consistent.

                      5-2	 Require the signature of both the OSWER and OARM
                           Assistant Administrators on all MOUs.

                      5-3	 Develop terms and conditions to be included in all MOUs that
                           ensure: (a) final contractor audits will be performed of all
                           individual IAGs, and unallowable costs are reimbursed to
                           EPA; (b) periodic meetings are held by national servicing
                           agency officials to address any IAG performance issues; and,
                           (c) servicing agencies will provide audit and other pertinent
                           contract information to EPA, upon request, including
                           contractor information from its contractor performance
                           system.

Agency Comments
and OIG Evaluation	   OSWER concurred with our finding and recommendations.
                      OSWER initiated a plan to revise the MOUs between EPA and
                      other Federal Agencies. OARM, however, did not respond to the
                      finding and recommendations. We believe OSWER’s comments
                      and planned corrective actions meet the intent of our
                      recommendations. However, OSWER should establish milestones
                      that designate when the corrective action will be completed. In
                      addition, these corrective actions should be coordinated as a joint
                      effort between OSWER and OARM to ensure the revised MOUs
                      incorporate critical elements of both Superfund cleanup activities
                      and prudent IAG management practices.




                                       18                          Report No. 2001-P-00011
                                    Exhibit A:

                           Environmental Accomplishments

Part of our activity during this audit focused on identifying the environmental benefits that
occurred with each IAG. We defined “environmental accomplishments” as the specific activities
that were included as part of each site’s remedial action, as defined under the Record of Decision.
Generally, these were output events. If possible, we included expected environmental outcomes
as part of site remediation. All 18 IAGs accomplished improvements to the environment
according to EPA records. Below, in matrix form, is a summary of accomplishments that were
recorded in each Region:

Region 2

    IAG Name                                   Environmental Accomplishments
U.S. Radium        • 34,000 cubic yards of radium contaminated material was removed.

Lipari Landfill    • Extracted and treated approximately 100 million gallons of on-site landfill leachate.
                   • Treated approximately 105 million gallons of off-site ground water.
                   • Excavated 128,000 tons of contaminated soils for the Chestnut Branch Marsh and
                     backfilled the excavated area with clean fill.
                   • Dredged and removed more than 85,000 tons of sediments from Alcyon Lake.
                   • Reduced the landfill leachate migration to off-site areas by 95%.
GCL Tire & Treat   •   Excavated and treated over 82,000 cubic yards of contaminated soil and debris.
                   •   Decontaminated and disposed of two 30,000 gallon steel treatment tanks.
                   •   Decontaminated and disposed of 5,800 gallons of free product.
                   •   Decontaminated and disposed of asbestos containing material.
                   •   Decontaminated and disposed of 1,900 tons of creosote treated wood chips.
                   •   Decontaminated and disposed of recycled 85 used tires.
Grand Street       • Relocation of all residents

Latex Industries   • Recycled or treated over 130,000 gallons of contaminated liquids (including flammable
                      organic liquids and PCB liquid wastes).
                   • Removed over 1,200 drums and 22 underground tanks.
                   • Destroyed 1,525 shock-sensitive materials.
                   • Removed 37 truckloads of non-hazardous combustible trash.
                   • Incinerated 12,048 gallons of flammable PCB solids.
                   • Sent 113,050 gallons of non-flammable PCB solids to an off-site landfill.
                   • Demolished 2 contaminated buildings (39,400 square feet) and disposed of the debris
                      off-site.
                   • Removed and disposed of 30 processing vats.




                                                     19                              Report No. 2001-P-00011
                                                                                                     Exhibit A

                                                                                                    Page 2 of 3

Region 5


   IAG Name                                     Environmental Accomplishments
Ott Story/Cordova   • 1,397,220 pounds of contaminants removed from 1,524,240,000 gallons treated.

Arcanum Iron &      • 30,000 tons of battery casings removed from the site.
Metal               • Lead levels at the start of project were 20,000 ppb - 72,000 ppb and now are under 400
                      ppb (which is the maximum level for residential use).
                    • Farmers grow soybeans on the backfilled soil.

Benton Harbor       •   200 5-gal containers of laquer and other organics removed.
                    •   56 drums of radium-painted gauges removed.
                    •   82 roll-offs of shredded material below 5 picoCuries/gm for radium shipped for disposal.
                    •   24 roll-offs of shredded debris exceeding 5 picoCuries/gram (Ra-226) that were
                        hazardous waste (cadmium) shipped for disposal.

Allied Paper        • 150,000 cubic yards of PCB-contaminated residual pulp waste, soil and sediment was
                      removed from the 22 acre site.
                    • Approximately 8 million gallons of contaminated water were treated and discharged.
                    • 271,000 tons of clean backfill material were imported and placed within the excavation
                      limits.

Rapid Response      • 44,836 tons of contaminated soil and sediment were excavated from Pettibone Creek,
                      plus 38,094 tons of contaminated soil were stabilized.
                    • A water pipeline to a nearby community was completed.
                    • 1,200 cubic yards of soil were excavated and sent to a landfill. Pollutant levels in water
                      samples were lowered, which resulted in not needing municipal water hookups at well
                      water homes.




                                                      20
                              Report No. 2001-P-00011
                                                                                                       Exhibit A

                                                                                                      Page 3 of 3

Region 6


   IAG Name                                       Environmental Accomplishments
Ouachita-Nevada        • Contaminated soils were excavated, removed, and disposed of properly.
Wood Treaters          • Contents of drum waste were mixed with the excavated site soils and disposed of
                         properly.
                       • Ground storage tanks were also emptied, decontaminated, and scrapped.

Bayou Bonfouca         • Excavation and onsite incineration of creosote waste piles and heavily contaminated
                         bayou sediment.
                       • A Resource Conservation and Recovery Act cap was placed over residues from the
                         incinerator and residual surface soils.
                       • Pump/ treatment/re-injection of contaminated groundwater.

Agriculture Street     • The latest Pollution Report prepared by the On-Scene Coordinator, for the week of
Landfill                 September 18, 2000, noted that Operable Units 1 and 3 were completed in Phase I.
                         Operable Unit 2, residential area, had 42 homes remaining for cleanup. Of the 42
                         homes, 27 had been given recent access for cleanup. Construction/cleanup of these 27
                         homes was expected to take 14 weeks. The latest USACE Project Report, dated
                         December 2000, noted that 31access agreements had been secured, with 25 homes
                         completed by Christmas.

Southern               • The incineration for Southern Shipbuilding was completed and all equipment associated
Shipbuilding             with the remedial action was demobilized in December 1996.

American Creosote      • 56,544 tons of PCB and creosote-contaminated soil incinerated.
Works                  • In-situ biological treatment of contaminated soil, and 26.7 million gallons of
                         contaminated groundwater.
                       • Remedy will reduce groundwater contamination to an acceptable level.



Region 7


  IAG Name                                      Environmental Accomplishments
 Oronogo-            • 1,998 properties have been excavated for lead-contaminated soil.
 Duenweg

 Cherokee            • A total of 602 residential homes had been remediated, thereby reducing public exposure to
 County                 soils with elevated lead and cadmium concentrations, thus reducing public exposure to
                     soils
                        with elevated lead and cadmium concentrations.

 Omaha Lead          • 135 properties have been excavated and backfilled, and have been planted with sod.
                     • Lead impacted soils have been removed from thirty properties.
                     • Preliminary screening by EPA indicated that some 211 properties out of the 348 tested had
                       elevated lead concentrations.


                                                        21
                               Report No. 2001-P-00011
                 Exhibit A




22   Report No. 2001-P-00011
                          Exhibit B:

                      IAG Cost Summary


                                                                  Cost
   Region          IAG Name                 Project Number   ($ in millions)
Region 2
            U.S. Radium                   DW 96941732-01           $ 85.12
            Lipari Landfill               DW 96941594-01              40.94
            GCL Tire & Treat              DW 96941783-01              17.00
            Grand Street                  DW 96941785-01              12.48
            Latex Industries              DW 96941781-01              27.00
Region 5
            Ott Story/Cordova             DW 96947932-01               6.00
            Arcanum Iron & Metal          DW 96947813-01                .08
            Benton Harbor                 DW 96947782-01               7.08
            Allied Paper                  DW 96947885-01               9.50
            Rapid Response                DW 96947840-01               6.05
Region 6
            Ouachita-Nevada
            Wood Treaters                 DW 14950232-01               2.20
            Bayou Bonfouca                DW 96934070-01             133.00
            Agriculture Street Landfill   DW 96950261-01              23.00
            Southern Shipbuilding         DW 96950210-01              22.67
            American Creosote Works       DW 96950151-01              19.10
Region 7
            Oronogo-Duenweg               DW 96952114-01              27.31
            Cherokee County               DW 96952111-01              12.48
            Omaha Lead                    DW 96952155-01               3.59

Total                                                              $ 454.60




                                     23                       Report No. 2001-P-00011
                                    Exhibit C:

                        Details on Scope and Methodology

Fieldwork was conducted by EPA-OIG’s Central and Northern Divisions in Regions 2, 5, 6, and 7
from October 2000 to February 2001, and consisted of the following:

Documentation review and analysis

•    EPA Resource Management Directive 2550C
•    EPA Resource Management Directive 2550D
•    EPA Interagency Agreement Policy and Procedures Compendium
•    Agency Government Performance and Results Act Goals 5 and 10
•    Regions 2 and 5 Federal Managers’ Financial Integrity Act Reports for 1998 and 1999
•    Region 6 Fiscal Year 2000 Mid-Year Report, and Region 7 Fiscal Year 2000 Report
•	   IAG file documentation: Records of Decision, progress reports, Action Memoranda, and
     correspondence
•    Regional Superfund Division organization charts

Personnel Interviewed

•	 EPA personnel: On-Scene Coordinators, Remedial Program Managers, Project Officers, and
   supervisors located in the Regions and at Headquarters.
• Other personnel: Servicing agency personnel.

Sample Selection

We reviewed a total of 18 active or recently completed IAGs as part of this audit. The IAGs in
each Region were selected based upon the following criteria:

1. High dollar value of the IAGs
2. Variety of servicing agencies

We initially selected 20 IAGs from EPA’s Grants Information Control System data base, which
listed a total of 915 IAGs with a combined value of about $3.5 billion. We discussed our sample
selection with each Region’s management, and adjusted our sample to ensure the IAGs we
selected met our criteria and provided results that would answer our objectives. To help us
address our objectives, we reviewed three MOUs, between EPA and the USACE, Bureau of
Reclamation, and U.S. Coast Guard, as they pertained to IAGs.

We conducted our audit work at OSWER and OARM, and at Regions 2, 5, 6, and 7. We also
made a site visit to the Benton Harbor Superfund site in Michigan.



                                               24                         Report No. 2001-P-00011
                                                                                         Exhibit C
                                                                                        Page 2 of 2

The audit was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States as they relate to economy and efficiency and program
results audits. We reviewed internal controls as required by the Government Auditing Standards.

Prior Audit Coverage

EPA OIG Report No. 6400019, “Region 8 Needed to Further Improve Interagency Agreement
Oversight to Ensure Efficient Summitville Superfund Site Cleanup,” was the result of a March
1995 Congressional request, in which a Colorado Congressman expressed concerns with the
Bureau’s contractor and the Bureau’s oversight of the contractor at the Summitville site. While
Region 8 had reduced the hazardous waste risks to the environment and the public, EPA did not
adequately oversee and monitor its servicing agency (the Bureau) to control costs and ensure
efficient cleanup. The report recommendations included that EPA evaluate the suitability of the
Bureau’s Upper Colorado Regional Office to manage the Summitville site and any other future
EPA Superfund cleanup activities.

EPA OIG Report No. 2000-P-000004, entitled “Timely Deobligation of Interagency Agreement
Funds,” reviewed the Agency’s ability to timely deobligate unliquidated IAG balances for
reprogramming for use by other EPA programs. While EPA had policies and procedures in place
to timely deobligate funds, the program offices and the cognizant grant offices did not consistently
follow the procedures. This resulted in IAG funds remaining obligated to projects that were
either completed or cancelled.

EPA OIG Report No. 2000-P-000029, entitled “Follow-Up on Headquarters Interagency
Agreements,” reported that project officers were adequately monitoring work under their IAGs.
However, the Project Officers needed to: (1) ensure they adequately documented goods and
services received, and (2) obtain more detailed payment information under disbursement IAGs.
Also, OIG observed that the Agency’s directives needed to be updated and/or consolidated, and
that training related to managing IAGs needed to be expanded to adequately cover the material in
IAG-related directives.




                                                25                          Report No. 2001-P-00011
                                  Appendix 1:

                              OSWER Response to Draft


                                                                                                                      Page 1 of 2

                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               WASHINGTON, DC 20460

                                                    MAY 31 2001
                                                                                                       OFFICE OF
                                                                                             SOLID WASTE AND EMERGENCY
                                                                                                      RESPONSE
MEMORANDUM
SUBJECT:           Response to OIG Draft Audit Report
                   “Superfund Interagency Agreements Audit”
FROM:              Michael H. Shapiro
                   Acting Assistant Administrator
TO:                Leah L. Nikaidoh, Audit Manager
                   Northern Audit Division

         The Office of Solid Waste and Emergency Response appreciates the opportunity to
comment on the subject draft report. The monthly conference calls were very helpful in keeping
us informed of the status of the audit, and we appreciated seeing an advanced copy of the draft
report for review and comment. The Grants Administration Division, Office of Administration
and Resources Management, will be forwarding their comments separately.
          We are pleased that your summary of audit findings state that we have effective controls
in place to ensure that Superfund Interagency Agreements (IAGs) achieve expected
environmental results in a timely, cost-effective, and efficient manner. We do, however,
continue to have concerns about your suggested enhancements to our IAG process, specifically
the recommendation to determine the qualifications of servicing agencies and their contractors
and to discuss IAG issues and servicing agency/contractor performance information among
regions. While monitoring the performance of work performed is crucial to good project
management, barring contractors from work based on informal discussions could lead a project
officer into a defacto debarment situation. In addition, the report is asking IAG project officers
to exceed the scope of their authority in both evaluating the performance of another federal
agency’s contracting operations and the performance of the other agency’s contractors.
         EPA uses other agencies to perform work because of their expertise and the cost savings
of using their established infrastructure. We expect that the other agency is capable of
performing the work. We only justify our selection, not the qualifications, of the other agency in
our decision memorandum. This is in line with EPA guidance. Every Federal Agency has
responsibilities delegated to them under Law and Executive Order 12580. EPA cannot mandate
how another agency performs its work, including how it awards and manages contracts. Even
though we cannot tell another agency how to do its work, there is no doubt that our project

                                            Internet Address (URL) • http://www.epa.gov
           Recycled/Recyclable • Printed with Vegetable Oil Based Inks on Recycled Paper (Minimum 30% Postconsumer)



          Note: The original was signed by Stephen D. Luftig for Michael H. Shapiro.

                                                            26                                            Report No. 2001-P-00011
                                                                                          Appendix 1
                                                                                          Page 2 of 2


officers should be monitoring the performance of the work under their IAGs closely and
reporting any issues and concerns to their IAG specialist and the Federal agency involved. What
we can, and will do, is ensure that at our meetings with other Federal agencies, including the
U.S. Corps of Engineers, we will review the performance of ongoing work and raise any
performance issues to the other Federal Agency’s management. Also, we intend to work with the
Grants Administration Division to improve IAG and memorandums of understanding (MOU)
terms and conditions to address performance and oversight issues.

         We agree that the 1991 OSWER Directive entitled “Revisions of Policy Regarding
Superfund Project Assignment between Alternative Remedial Contracting Strategy Contractors
and the U.S. Army Corps of Engineers” needs to be revised, and we established a subgroup under
the Design/Construct Phase II workgroup to do so. We also agree that the memorandums of
understandings between EPA and other Federal Agencies should be revised, and we will begin
establishing a plan to revise them.

          I am attaching the comments we submitted on the preliminary draft report for your
reference. The following two corrections should be made to the final report: 1) it should be
noted in the background section that the project officers and remedial program managers are
within the regions, not OSWER; and 2) the workgroups referenced in the first finding are not
workgroups, but councils. I am also attaching comments we received from the Bureau of
Reclamation.

         If you have any questions concerning this response, please contact Barbara McDonough
of the Acquisition Resources Management Staff at 202-260-6674 or Johnsie Webster, OSWER
Audit Liaison, at 202-260-4475.

Attachments

cc:

David O’Connor

Barbara McDonough

Ken Skahn

John Riley

Rich Troast

Scott McMoran

David Ullrich

Joe Rauscher





                                              27                              Report No. 2001-P-00011
                                    Appendix 2:

                                OARM Response to Draft


                                                                                                                      Page 1 of 2

                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               WASHINGTON, DC 20460

                                                    JUN 16 2001
                                                                                                             OFFICE OF
                                                                                                          ADMINISTRATION
                                                                                                          AND RESOURCES
                                                                                                            MANAGEMENT


MEMORANDUM
SUBJECT:           Comments on Draft Report–Superfund Interagency Agreements Audit
FROM:              David J. O’Connor
                   Acting Assistant Administrator
                   Office of Administration and Resources Management
TO:                Leah L. Nikaidoh
                   Audit Manager
                   Northern Audit Division
        Thank you for the opportunity to comment on the Superfund Interagency Agreements
(IAGs) draft audit report issued on April 27, 2001. I understand that the Office of Solid and
Hazardous Waste has provided separate comments on the report.
         I am very encouraged by the report’s finding that the Agency is generally managing
Superfund IAGs in an effective manner. I have one comment on Recommendation 1-1, which
proposes, in part, that EPA establish a process to review Superfund contractors’ performance and
qualifications and share the information among Regions.
         I agree with the premise underlying Recommendation 1-1 that EPA needs to pay greater
attention to contractor performance to ensure that it receives the goods and services it orders
through IAGs. At the same time, I am concerned that the proposed process, if not properly
structured, would result in the “de facto” debarment of contractors outside of the government-
wide debarment and suspension system. This could prompt contractors to file lawsuits against
Agency officials in their individual capacities alleging violations of due process rights.
        Under these circumstances, I believe that the process proposed under Recommendation
1-1 should be revised to address potential “de facto” debarment issues, including integrating the
process with EPA’s debarment and suspension program. Staff from the Office of Grants and
Debarment are available to work with you to develop the necessary changes.
        If you have any questions about these comments, please contact Howard Corcoran on
(202) 564-1903, Scott McMoran on (202) 564-5376, or Robert Meunier, EPA’s Debarring and
Suspending Official, on (202) 564-5399.

                                            Internet Address (URL) • http://www.epa.gov
           Recycled/Recyclable • Printed with Vegetable Oil Based Inks on Recycled Paper (Minimum 30% Postconsumer)




                                                            28                                            Report No. 2001-P-00011
Note: The original was signed by David J. O’Connor.




                        29                            Report No. 2001-P-00011
                                          Appendix 2
                                          Page 2 of 2


cc: 	Jane Moore
     Marty Monell
     Sandy Womack-Butler
     Paige Peck
     Judy Davis
     Barbara McDonough
     Mike Shapiro
     Mark Bialek
     Howard Corcoran
     Scott McMoran
     Robert Meunier
     John Showman
     David Osterman




                           30   Report No. 2001-P-00011
                                     Appendix 3:

                              Region 5 Response to Draft


                                                                                                                      Page 1 of 2

                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      REGION 5
                            77 WEST JACKSON BOULEVARD
                                CHICAGO, IL 60604-3590

                                                    30 MAY 2001

                                                                                 REPLY TO THE ATTENTION OF




MEMORANDUM

SUBJECT: Response to Draft Audit Report on
         Superfund Interagency Agreements

FROM:        David A. Ullrich
             Acting Regional Administrator

TO:          Leah L. Nikaidoh, Audit Manager
             Northern Audit Division

Thank you for the opportunity to review and comment on the subject draft audit report. Our
response to the specific audit recommendations pertaining to Region 5 is attached. I would also
like to thank you for the opportunity for my staff to meet regularly with your audit team in person
or on conference calls as the audit progressed.

If you have any questions about this response, please contact Cindy Wakat at (312) 886-7338.




                                                                     David A. Ullrich


Attachment

cc: Michael Shapiro, Acting Assistant Administrator (OSWER)
    David O’Connor, Acting Assistant Administrator (OARM)


           Recycled/Recyclable • Printed with Vegetable Oil Based Inks on Recycled Paper (Minimum 30% Postconsumer)




                                                            31                                            Report No. 2001-P-00011
Note: The original was signed by Norman Niedergang for David A. Ullrich.




                                  32                             Report No. 2001-P-00011
                                                                                            Appendix 3

                                                                                            Page 2 of 2




                    REGION 5 RESPONSE TO DRAFT AUDIT
           REPORT ON SUPERFUND INTERAGENCY AGREEMENTS (IAGs)

Recommendation 1-2: Direct Regions to follow guidance to document selection of servicing
agencies under the IAGs.

Planned Corrective Actions:

We plan to standardize our format to include documentation of the rationale used to select an
IAG versus a contract. We will also document the requirement in an internal control memo for
distribution and use in training within the Superfund Division. We will establish a workgroup
during the third quarter of Fiscal Year (FY) 2001 that will include these tasks and complete the
revised format and internal control memo by the end of the first quarter of FY 2002.


Recommendation 2-1: We recommend that Region 5 implement a process to ensure that all of
its
IAGs contain the RMD 2550D elements.

Planned Corrective Actions:

Region 5 will make Superfund IAG project officers and technical staff aware of the requirements
of RMD 2550D by including the requirements in an internal control memo and training to be
developed by the workgroup referred to in our response to Recommendation 1-2. As stated
above, the workgroup will be established in the third quarter of FY 2001 and the internal control
memo and training will be completed by the end of the first quarter of FY 2002.


Recommendation 3-1: We recommend that Region 5 establish a process that ensures monitoring
reports are received and reviewed by both the project officers and remedial program managers.

Planned Corrective Actions:

The same workgroup referred to in the planned corrective actions above will also be directed to
review how to improve Region 5’s monitoring of IAGs in a more consistent and effective
manner.
The workgroup will consider other regions’ processes and develop a process that will work
within the structure and context of Region 5. The expected time frame for completion is the
same
as stated in our responses above.




                                               33
                              Report No. 2001-P-00011
                                     Appendix 4:
                                  Report Distribution
Office of Inspector General
       Inspector General

Headquarters Office
      Assistant Administrator for Office of Solid Waste and Emergency Response (5101)
      Assistant Administrator for Office of Administration and Resources
              Management (3101)
      Agency Followup Official (2710A)
      Agency Audit Followup Coordinator (2724A)
      Audit Followup Coordinator for Office of Solid Waste and Emergency Response (5103)
      Audit Followup Coordinator for Office of Administration and Resources
              Management (3102)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Director, Office of Regional Operations (1108A)
      Associate Administrator for Communications, Education, and Media Relations (1101A)
      Director, Grants Administration Division (3903A)

EPA Region 5
     Director, Resources Management Division
     Director, Superfund Division

Regional Offices
      Regional Administrators
      Regional Public Affairs Offices
      Audit Followup Coordinator for Regions 2, 5, 6, and 7

Note: Report distribution was done electronically. Each action official was also provided with a
hard copy of this report. Additional hard copies are available, upon request.




                                              34                         Report No. 2001-P-00011
